Report No. D-2011-041                February 18, 2011




     American Recovery and Reinvestment Act of 2009
    Funds Used to Repair and Renovate Building 216 at
                   Fort Riley, Kansas
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/recovery/index.html or contact the Secondary
Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
FAR                           Federal Acquisition Regulation
FBO                           Federal Business Opportunities
FPDS                          Federal Procurement Data System
FSRM                          Facilities Sustainment, Restoration, and Modernization
OMB                           Office of Management and Budget
QMAD                          Quantitative Methods and Analysis Division
USACE                         U.S. Army Corps of Engineers
                                     INSPECTOR GENERAL 

                                     DEPARTMENT OF DEFENSE 

                                       400 ARMY NAVY DRIVE 

                                  ARLINGTON , VIRGINIA 22202-4704 





                                                                               FeblUary 18,2011

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)!
                 CHIEF FINANCIAL OFFICER
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Amelican Recovery and Reinvestment Act of2009 Funds Used to Repair and
         Renovate Building 216 at Fort Riley, Kansas
         (RepOI1 No. D-2011-041)

We are providing this rep0l1 for your infOimation and use. We perfonned this audit in response
to the requirements of Public Law 111-5, "American Recovery and Reinvestment Act of2009,"
FeblUary 17, 2009. We detelmined that the project to repair and renovate building 216 at Fort
Riley, Kansas, was justified and met the American Recovery and Reinvestment Act of 2009
goals for accountability and transparency. We are making no recommendations and do not
require a written response. Therefore, we are publishing this report in final fonn.

We appreciate the cOUl1esies extended to the staff. Please direct questions to me at (703) 604­
9201 (DSN 664-9201).




                                     Richard B. Jolliffe
                                     Assistant Inspector General
                                     Acquisition and Contract Management
Report No. D-2011-041 (Project No. D2009-D000CE-0312.000)                             February 18, 2011



                   Results in Brief: American Recovery and
                   Reinvestment Act of 2009 Funds Used to Repair
                   and Renovate Building 216 at Fort Riley, Kansas

What We Did                                              Figure 1. Building 216 at Fort Riley, Kansas
We reviewed the planning, funding, initial
execution, and tracking and reporting of an
American Recovery and Reinvestment Act of
2009 (Recovery Act) project at Fort Riley to
determine whether efforts of Fort Riley and U.S.
Army Corps of Engineers personnel complied
with Recovery Act requirements, Office of
Management and Budget guidance, the Federal
Acquisition Regulation, and DOD implementing
guidance.                                                Source: U.S. Army Corps of Engineers


What We Found                                            Figure 2. Interior of Building 216 at Fort
The project to repair and renovate building 216          Riley, Kansas
at Fort Riley, estimated to cost $9.8 million, met
the Recovery Act goals for accountability and
transparency. In addition, Fort Riley and U.S.
Army Corps of Engineers personnel adequately
planned, funded, initially executed, and tracked
and reported the project to repair and renovate
building 216 as required by the Recovery Act,
Office of Management and Budget guidance,
the Federal Acquisition Regulation, and DOD
implementing guidance.
                                                         Source: U.S. Army Corps of Engineers
What We Recommend
This report contains no recommendations.

Management Comments
Fort Riley and U.S. Army Corps of Engineers
personnel had no comments on a discussion
draft of this report.




                                                     i
Table of Contents

Introduction	                                                               1     


      Audit Objectives                                                      1

      Recovery Act Background                                               1

      Fort Riley Mission                                                    3

      USACE Kansas City District                                            4

      Review of Internal Controls at Fort Riley and USACE Kansas City       4


Proper Planning, Funding, Execution, and Tracking and Reporting of the 

Recovery Act Project to Repair and Renovate Building 216 at 

Fort Riley, Kansas                                                          5


      Project Planning Was Adequate                                         5

      Project Funding Was Proper                                            6

      Initial Project Execution Was Proper                                  6

      Project Tracking and Reporting Was Adequate                           7


Appendices

      A. 	Scope and Methodology                                             9

             Prior Audit Coverage                                          10     

      B. Recovery Act Criteria and Guidance 	                              11 

Introduction
Audit Objectives
The primary objective of the audit was to determine whether DOD and its Components
were planning and implementing the American Recovery and Reinvestment Act of 2009
(Recovery Act) by meeting the requirements in the Recovery Act, Office of Management
and Budget (OMB) Memorandum M-09-10, “Initial Implementing Guidance for the
American Recovery and Reinvestment Act of 2009,” February 18, 2009, and subsequent
related guidance. For this audit, we reviewed the planning, funding, initial execution, and
tracking and reporting of Recovery Act Project 64572 to repair and renovate the interior
and exterior of building 216 at Fort Riley, to determine whether the efforts of the Army
complied with Recovery Act requirements, OMB guidance, the Federal Acquisition
Regulation (FAR), and DOD implementing guidance. See Appendix A for a discussion
of our scope and methodology.

Recovery Act Background
The President signed the Recovery Act into law on February 17, 2009. It is an
unprecedented effort to jump-start the economy and create or save jobs.

       The purposes of this Act include the following:
              (1) To preserve and create jobs and promote economic recovery.
              (2) To assist those most impacted by the recession.
              (3) To provide investments needed to increase economic efficiency by
                  spurring technological advances in science and health.
              (4) To invest	 in transportation, environmental protection, and other
                  infrastructure that will provide long-term economic benefits.
              (5) To stabilize State and local government budgets, in order to minimize
                  and avoid reductions in essential services and counterproductive state
                  and local tax increases
                  .        .         .         .       .        .       .
       . . . the heads of Federal departments and agencies shall manage and expend the
       funds made available in this Act so as to achieve the purposes specified . . .
       including commencing expenditures and activities as quickly as possible
       consistent with prudent management.

Recovery Act Requirements
The Recovery Act and implementing OMB guidance require projects to be monitored and
reviewed. We grouped these requirements into the following four phases: (1) planning,
(2) funding, (3) execution, and (4) tracking and reporting. The Recovery Act requires
that projects be properly planned to ensure the appropriate use of funds. The funding
phase is to ensure the funds were used for authorized purposes and distributed properly to
the projects. The initial execution phase is to ensure that contracts awarded with
Recovery Act funds were transparent to the public, competed, and contained specific
FAR clauses for Recovery Act contract actions. The execution phase also ensures that
program goals were achieved, including specific program outcomes and improved results
on broader economic indicators; that projects funded avoided unnecessary delays and

                                                   1

cost overruns; and that contractors or recipients of funds reported results. The tracking
and reporting phase ensures that the recipients’ use of funds was transparent to the public
and that benefits of the funds were clearly, accurately, and timely reported.

Recovery Act Contracting Requirements
The Recovery Act establishes transparency and accountability requirements. Federal
Acquisition Circular 2005-32, March 31, 2009, provides policies and procedures for the
Government-wide implementation of the Recovery Act and guidance on special contract
provisions. Federal Acquisition Circular 2005-32 amended the FAR and provided
interim rules that made FAR solicitation provisions and contract clauses immediately
available for inclusion in contracts for Recovery Act work.

The specific FAR Recovery Act requirements are for:

       buying American construction material,
       protecting contractor whistleblowers,
       publicizing contract actions,
       reporting, and
       giving the Government Accountability Office and agency Inspectors General
        access to contracting records.

Federal Government organizations meet requirements for Recovery Act contract actions
by posting information on the Federal Business Opportunities (FBO) and Federal
Procurement Data System (FPDS) Web sites. FAR Subpart 5.7, “Publicizing
Requirements Under the American Recovery and Reinvestment Act of 2009,” directs
contracting officers to use the Government-wide FBO Web site (http://www.fbo.gov) to:

       identify the action as funded by the Recovery Act,
       post pre-award notices for orders exceeding $25,000,
       describe supplies in a clear narrative to the general public, and
       provide the rationale for awarding any contracting actions that were not both
        fixed-price and competitive.

FBO is the Federal Government’s central source of Federal procurement opportunities.
FBO is a Web-based portal that allows agency officials to post Federal procurement
opportunities and contractors to search and review those opportunities. Agencies also
post contract award notices on FBO. In addition, to provide transparency, FBO has a
separate section identifying Recovery Act opportunities and awards.

FPDS is the Federal Government’s central source of procurement information.
Contracting officers enter information, to include the Treasury Account Symbol, in the
FPDS for all Recovery Act contract actions. The Treasury Account Symbol enables
FPDS to provide transparency by generating and posting a report containing all Recovery
Act contract actions.



                                             2

OMB Recovery Act Guidance
Criteria for planning and implementing the Recovery Act continue to change as OMB
issues additional guidance, and DOD and the Components issue their implementation
guidance. OMB has issued 11 memoranda and 1 bulletin to address the implementation
of the Recovery Act. See Appendix B for Recovery Act criteria and guidance.

DOD Recovery Act Program Plans
Under the Recovery Act, Congress appropriated approximately $12 billion to DOD for
the following programs: Energy Conservation Investment; Facilities Sustainment,
Restoration, and Modernization (FSRM); Homeowners Assistance; Military
Construction; Near Term Energy-Efficient Technologies; and U.S. Army Corps of
Engineers (USACE) Civil Works.
          DOD Agency-Wide and Program-Specific Recovery Act Programs
                            Program                            Amount
                                                             (in millions)
  Energy Conservation Investment                                   $120
  Facilities Sustainment, Restoration, and Modernization          4,260*
  Homeowners Assistance                                             555
  Military Construction                                           2,185
  Near Term Energy-Efficient Technologies                           300
  U.S. Army Corps of Engineers Civil Works                        4,600
     Total                                                     $12,020*
*On August 10, 2010, Public Law 111-226, Title III, “Rescissions,” rescinded $260.5 million of funds from
DOD Operations and Maintenance Accounts supporting the Recovery Act. This reduced the DOD
Recovery Act FSRM amounts to approximately $4 billion and total DOD Agency-wide and Program-
Specific Recovery Act program funding to approximately $11.76 billion.

The Recovery Act divides the approximately $12 billion among 32 DOD and USACE
line items of appropriations.

Fort Riley Mission
Fort Riley is under the authority of the West Region of the U.S. Army Installation
Command. Fort Riley provides facilities for training, readiness, and deployability for
three combat brigades. It also provides support for mobilizing and deploying active and
reserve component units. Fort Riley is home to the 1st Infantry Division, which deploys
to conduct a full spectrum of operations.

Fort Riley had 39 Recovery Act-funded FSRM projects, estimated to cost $54.9 million.
We reviewed one FSRM project, estimated to cost $9.8 million, for the repair and
renovation of building 216 at Fort Riley, Kansas. The scope of work included renovating
building 216, a historic building, to provide administrative offices, council rooms, and
courtrooms for the Judge Advocate General staff.



                                                   3

USACE Kansas City District
The USACE Kansas City District (USACE Kansas City) supported Fort Riley by
providing contracting and project management services. These services included
awarding the contract and assigning personnel to oversee the contracted work. USACE
Kansas City executed a total of 11 Recovery Act-funded FSRM projects at Fort Riley
valued at $33.5 million.

Review of Internal Controls at Fort Riley and USACE
Kansas City
Fort Riley and USACE Kansas City internal controls over the planning, funding, initial
execution, and tracking and reporting of the repairs and renovations of building 216 at
Fort Riley were effective as they applied to the audit objectives.




                                            4

Proper Planning, Funding, Execution, and
Tracking and Reporting of the Recovery Act
Project to Repair and Renovate Building 216
at Fort Riley, Kansas
Fort Riley and USACE Kansas City personnel adequately justified the project to repair
and renovate building 216 at Fort Riley, and the project met the Recovery Act goals for
accountability and transparency. In order to achieve these goals, Fort Riley and USACE
Kansas City personnel adequately planned, funded, and initially executed the project.
Fort Riley and USACE Kansas City personnel also appropriately tracked and reported the
project as required by the Recovery Act.

Project Planning Was Adequate
Fort Riley and USACE Kansas City personnel adequately planned the repair and
renovation project for building 216. We reviewed DD Form 1391, “Military
Construction Project Data,” and supporting documentation to include planning
documents, engineering drawings, and cost estimates for the project. DOD Regulation
7000.14-R, “DOD Financial Management Regulation,” volume 2B, chapter 6, requires
DOD Components to use DD Form 1391 when requesting authorization of both new
construction and urgent, unforeseen projects using emergency or contingency
authorization. Two specific sections of DD Form 1391 detail the requirements for
proposed projects and how the proposed projects would benefit the mission. Specifically,
Item 10, “Description of Proposed Construction,” requires clear and concise descriptions
of the proposed construction, including a complete outline of all principal features of the
work. Item 11, “Requirement,” provides a detailed information statement of why the
project is needed, how and under what conditions the requirements are presently being
met, and the manner and extent to which mission accomplishment would be affected if
projects were not approved.

We reviewed the DD Form 1391 for the project. The DD Form 1391 adequately justified
and explained the requirements, current state, and impact of repairing and renovating
building 216. Specifically, building 216, a nationally registered building, had
deteriorated while vacant for the last 10 years, and the deterioration presents many health
hazards (see figures 3 and 4). The DD Form 1391 states that this project will make the
building safe and useable so it can house the administrative offices, council rooms, and
courtrooms of the Staff Judge Advocate. Upon completion of the project, the Staff Judge
Advocate will move from building 200, which is scheduled for repair and must be
vacated, to building 216.

Fort Riley and USACE Kansas City personnel also supported the planning process by
hiring an architecture and engineering firm to assess the deteriorated condition of the
building. The firm prepared drawings of the construction area that were included in the
solicitation package and developed construction cost estimates for the project. USACE

                                             5

Kansas City also prepared an Independent Government Estimate approved by its Chief of
Cost Engineering.


Figure 3. Hazardous Conditions                   Figure 4. Staircase in Need of Repairs
Inside Building 216 at Fort Riley,               Inside Building 216 at Fort Riley,
Kansas                                           Kansas




Source: U.S. Army Corps of Engineers             Source: U.S. Army Corps of Engineers



Project Funding Was Proper
In May 2009, Headquarters USACE properly distributed $8.0 million in Recovery Act
funds to USACE Kansas City to repair and renovate building 216. Between
January 5, 2010 and March 16, 2010, USACE Kansas City officials stated that they
transferred to the project additional funding in bid savings from another Recovery Act
project to fund the contract award. These transfers increased the amount available for the
project to approximately $10.77 million. USACE Kansas City officials subsequently
returned approximately $.99 million to Headquarters USACE in three separate
transactions between July 27, 2010 and August 10, 2010; leaving approximately
$9.78 million in reserve for the project to repair and renovate building 216.

Initial Project Execution Was Proper
USACE Kansas City contracting personnel properly performed initial project execution
of the Recovery Act project to repair and renovate building 216. In our evaluation of the
initial project execution, we determined that USACE Kansas City contracting personnel
competitively solicited and awarded, with full transparency, a contract for renovating
building 216 that contained the FAR clauses required for Recovery Act contract actions.

Transparency and Recovery Act FAR Clauses
USACE Kansas City contracting personnel took the required steps to ensure that
transactions related to the project were transparent. They properly posted a solicitation
notice and a separate award notice, both containing the required Recovery Act language
and a clear description of the work required, on the FBO Web site. The contracting
office recorded all contract actions in FPDS and correctly included the Treasury account


                                            6

symbol in the Description of Requirement field. Further, the contract contained all
applicable FAR clauses required by the Recovery Act.

Competition and Contract Award
As indicated in the solicitation, USACE Kansas City contracting personnel competed the
project among 8(a) small businesses in Region VII, which included Kansas, Missouri,
Nebraska, and Iowa. Two contractors submitted proposals that were evaluated based on
technical factors and price. USACE Kansas City contracting personnel determined that
the Caman Construction Company—Titan Construction Joint Venture offer provided the
best value to the Government and on February 12, 2010, awarded the joint venture a
firm-fixed price contract valued at approximately $9.0 million with two options valued at
$.45 million. The Army incorrectly reported the project to Congress and, as a result, the
issuance of the Notice to Proceed was delayed.

Section 2811, title 10, United States Code, requires Congress be notified of FSRM
projects greater than $7.5 million. On March 20, 2009, the Under Secretary of Defense
(Comptroller)/Chief Financial Officer submitted a report to Congress that contained
DOD’s FSRM repair and renovation project notification. The plan incorrectly described
the scope of work for building 216 as repairs to an existing barrack, stating that the
facility may be used to house soldiers redeploying from Iraq or Afghanistan. During the
audit, we informed the Army of the errant notification and Army officials corrected the
project description in subsequent letters to Congress.

USACE Kansas City contracting personnel issued the Notice to Proceed to the Caman
Construction Company—Titan Construction Joint Venture on April 20, 2010. On
April 21, 2010, USACE Kansas City contracting personnel modified the contract to
exercise options, thereby increasing the cost of the contract to approximately
$9.45 million.

Project Cost and Schedule
According to USACE Kansas City personnel, the project to repair and renovate
building 216 was in the design phase and about 6 percent complete. The design-build
contract project schedule indicated that the contractor is scheduled to complete work by
October 12, 2011, within projected cost.

Project Tracking and Reporting Was Adequate
The USACE Kansas City personnel had adequate resources to track and report the
project. USACE Kansas City assigned a contracting officer’s representative at Fort Riley
to monitor, evaluate, and document the contractor’s performance. The contracting officer
included FAR clause 52.204-11, “American Recovery and Reinvestment Act – Reporting
Requirements,” which requires the contractor for Recovery Act-funded projects to report
project information at http://www.federalreporting.gov. Caman Construction
Company—Titan Construction Joint Venture reported the number of jobs and the total
dollar value for the project as required for January 1, 2010 through March 31, 2010, and
April 1, 2010 through June 30, 2010.


                                            7

8

Appendix A. Scope and Methodology
We conducted this audit from September 2009 through December 2010 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

Scope
We selected for review one Recovery Act project at Fort Riley. The project to repair and
renovate building 216 to provide administrative offices, council rooms, and courtrooms
for the Judge Advocate General staff was estimated to cost $9.78 million. USACE
Kansas City awarded the contract with modifications for approximately $9.45 million.
The remaining estimated cost of $0.33 million was used for planning and administrative
costs.

Methodology
Our overall audit objective was to evaluate DOD’s planning and implementation of the
Recovery Act of 2009. To accomplish our objective, we reviewed the planning, funding,
execution, and tracking and reporting of Project 64572. We interviewed key personnel
from the USACE Kansas City and Fort Riley Army Garrison and conducted a site visit to
observe the conditions of building 216. We also reviewed official contract file
documentation including the economic analysis, cost estimate, DD Form 1391, and
budget authorization and associated support to determine whether efforts of Fort Riley
and USACE Kansas City personnel complied with Recovery Act requirements, OMB
guidance, the FAR, and DOD implementing guidance. Specifically, we determined
whether:

      the project was adequately planned to ensure the appropriate use of Recovery Act
       funds (Planning);
      funds were used for authorized purposes and properly distributed to the project
       (Funding);
      the contract was competed and awarded with full transparency and contained the
       required Recovery Act FAR clauses (Initial Project Execution);
      projects avoided unnecessary delays and cost overruns (Project Execution); and
      recipients’ use of funds was transparent to the public and the benefits of the funds
       were clearly, accurately, and timely reported (Tracking and Reporting).

Use of Computer-Processed Data
We used computer-processed data from the Federal Procurement Data System, 

Central Contractor Registration, Excluded Parties List System, FBO, 

www.federalreporting.gov, and other systems to determine whether the project met the 

Recovery Act requirements for accountability and transparency. We tested the accuracy 


                                            9

of the computer-processed data by obtaining copies of contracting, funding, and project
documentation from Fort Riley and USACE Kansas City District. We also interviewed
Fort Riley and USACE Kansas City personnel responsible for managing the project. We
did not identify problems related to the integrity of the data.

Use of Technical Assistance
Before selecting DOD Recovery Act projects for audit, the Quantitative Methods and
Analysis Division (QMAD) of the DOD Office of Inspector General analyzed all DOD
agency-funded projects, locations, and contracting oversight organizations to assess the
risk of waste, fraud, and abuse associated with each. QMAD selected most audit projects
and locations using a modified Delphi technique, which allowed QMAD to quantify the
risk based on expert auditor judgment, and other quantitatively developed risk indicators.
QMAD used information collected from all projects to update and improve the risk
assessment model. QMAD selected 83 projects with the highest risk rankings; auditors
chose some additional projects at the selected locations.

QMAD did not use classical statistical sampling techniques that would permit
generalizing results to the total population because there were too many potential
variables with unknown parameters at the beginning of this analysis. The predictive
analytic techniques employed provided a basis for logical coverage not only of Recovery
Act dollars being expended, but also of types of projects and types of locations across the
Defense agencies and Military Services, State National Guard units, and public works
projects managed by USACE.

Prior Audit Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DOD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                            10 

Appendix B. Recovery Act Criteria and
Guidance
The following list includes the primary Recovery Act criteria and guidance (notes appear
at the end of the list):

   	 U.S. House of Representatives Conference Committee Report 111-16, “Making
      Supplemental Appropriations for Job Preservation and Creation, Infrastructure
      Investment, Energy Efficiency and Science, Assistance to the Unemployed, and
      State and Local Fiscal Stabilization, for the Fiscal Year Ending September 30,
      2009, and for Other Purposes,” February 12, 2009

   	 Public Law 111-5, “American Recovery and Reinvestment Act of 2009,”
      February 17, 2009

   	 OMB Memorandum M-09-10, “Initial Implementing Guidance for the American
      Recovery and Reinvestment Act of 2009,” February 18, 2009

   	 OMB Bulletin No. 09-02, “Budget Execution of the American Recovery and
      Reinvestment Act of 2009 Appropriations,” February 25, 2009

   	 White House Memorandum, “Government Contracting,” March 4, 2009

   	 White House Memorandum, “Ensuring Responsible Spending of Recovery Act
      Funds,” March 20, 2009

   	 OMB Memorandum M-09-15, “Updated Implementing Guidance for the
      American Recovery and Reinvestment Act of 2009,” April 3, 20091

   	 OMB Memorandum M-09-16, “Interim Guidance Regarding Communications
      With Registered Lobbyists About Recovery Act Funds,” April 7, 2009

   	 OMB Memorandum M-09-19, “Guidance on Data Submission under the Federal
      Funding Accountability and Transparency Act (FFATA),” June 1, 2009

   	 OMB Memorandum M-09-21, “Implementing Guidance for the Reports on Use
      of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,”
      June 22, 20092

   	 OMB Memorandum M-09-24, “Updated Guidance Regarding Communications
      with Registered Lobbyists About Recovery Act Funds,” July 24, 2009

   	 OMB Memorandum M-09-30, “Improving Recovery Act Recipient Reporting,”
      September 11, 2009

                                           11 

    	 OMB Office of Federal Procurement Policy, “Interim Guidance on Reviewing
       Contractor Reports on the Use of Recovery Act Funds in Accordance with FAR
       Clause 52.204-11,” September 30, 20092

    	 OMB Memorandum M-10-08, “Updated Guidance on the American Recovery
       and Reinvestment Act – Data Quality, Non-Reporting Recipients, and Reporting
       of Job Estimates,” December 18, 20092

    	 OMB Memorandum M-10-14, “Updated Guidance on the American Recovery
       and Reinvestment Act,” March 22, 20102

    	 White House Memorandum, “Combating Noncompliance With Recovery Act
       Reporting Requirements,” April 6, 20102

    	 OMB Memorandum M-10-17, “Holding Recipients Accountable for Reporting
       Compliance under the American Recovery and Reinvestment Act,” May 4, 20102

    	 OMB Memorandum M-10-34, “Updated Guidance on the American Recovery
       and Reinvestment Act,” September 24, 20102




Notes
1
  Document provides Government-wide guidance for carrying out programs and activities enacted in the
American Recovery and Reinvestment Act of 2009. The guidance states that the President’s commitment
is to ensure that public funds are expended responsibly and in a transparent manner to further job creation,
economic recovery, and other purposes of the Recovery Act.
2
 Document provides Government-wide guidance for carrying out the reporting requirements included in
section 1512 of the Recovery Act. The reports will be submitted by recipients beginning in October 2009
and will contain detailed information on the projects and activities funded by the Recovery Act.




                                                     12 

